Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  PATERNITY ESTABLISHMENT

         Use of Alternative Sites for
     Voluntary Paternity Acknowledgment




                      JUNE GIBBS BROWN
                       Inspector General

                           JULY 1999
                           06-98-00052
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                                Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General, and Judith V. Tyler, Deputy Regional Inspector General.

Principal OEI staff included:

REGION                                               HEADQUARTERS

Blaine Collins
                                      Alan Levine, Program Specialist
Ruth Ann Dorrill
                                    Linda Hall
Marnette Robertson

Clark Thomas, Ph.D.

Nancy Watts

Lisa White


FIELD

Lucille Cop
Vincent Greiber
Ianna Kachoris
Thomas Purvis
Graham Rawsthorn


     To obtain copies of this report, please call the Dallas Regional Office at 214-767-3310.
   Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                  Use of Alternative Sites for Voluntary
                       Paternity Acknowledgment

PURPOSE

This report describes the early implementation efforts of State child support agencies to offer
voluntary paternity acknowledgment services through alternative sites.

RESULTS IN BRIEF

We found about half of the States currently offer acknowledgment services through some of their
public assistance offices. Few States, however, have yet expanded services to other sites that
child support agencies believe are potentially important to their paternity establishment efforts.
State efforts to encourage participation have met reluctance by some entities due to time demands
on limited staff and lack of financial incentives. Typical services offered through alternative sites
include distribution of public outreach materials explaining voluntary acknowledgment and, to a
lesser degree, personal assistance to parents in completing paternity acknowledgments. Many
State child support agencies have yet to develop adequate methods of monitoring and evaluating
alternative sites. We offer a number of suggestions to promote use of alternative sites by
capitalizing on and refining effective practices now being used in some localities.

BACKGROUND

As part of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996,
Congress requires State child support agencies to provide voluntary paternity acknowledgment
services through in-hospital acknowledgment programs and through “the State agency responsible
for maintaining birth records.”1 To further expand services to unmarried parents, the Act allows,
but does not require, States to offer acknowledgment services through “other entities.”2 If States
use this added flexibility to expand acknowledgment services, the law requires State child support
agencies to administer alternative sites in the same manner as in-hospital programs.

The Office of Child Support Enforcement (OCSE) recently issued regulations on paternity
establishment.3 These regulations specify that “... State procedures governing hospital-based
programs and birth record agencies must also apply ...” to alternative sites designated by the
State. The regulations also impose certain requirements on alternative sites involved in
acknowledgment efforts, including “... undergoing training, being evaluated annually, providing
oral and written information to mothers and putative fathers, and transmitting the
acknowledgments to the State registry of birth records.” States may decide which entities to use,
but OCSE regulations provide a list of possible alternative sites including child support, public
assistance, and food stamp offices, public health clinics (including WIC centers), private health
care providers, Head Start and child care facilities, child care providers, Community Action


                                                  1

Agencies and Community Action Programs, secondary schools, Legal Aid agencies, private
attorneys, and similar entities that provide health, welfare and/or social services.

This report focuses on expansion of acknowledgment services through these discretionary
alternative sites. Excluded from this discussion are the voluntary paternity acknowledgment
services provided through hospitals, other birthing centers, vital records offices and local child
support offices.4 We received survey responses on alternative site activity from all States and the
District of Columbia.5 The following preliminary findings are provided to assist OCSE in its
efforts to monitor State progress and provide technical assistance to promote early
implementation efforts.

This study was conducted in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.

FINDINGS

Public Assistance Agencies Participate in Voluntary Paternity Acknowledgment Efforts in
Twenty-six States.

State child support agencies have involved public assistance offices in acknowledgment efforts
more frequently than other alternative sites. Sixteen States report offering acknowledgment
services through one hundred percent of local public assistance offices, while ten other States
report partial implementation. Providing voluntary acknowledgment services through public
assistance offices seems a natural fit in many States for several reasons. These agencies
administer Temporary Assistance to Needy Families programs and often handle eligibility for
Medicaid, food stamps and other human service programs. Caseworkers at public assistance
offices often see clients with children who do not have paternity established. Clients may feel
more comfortable dealing with their public assistance caseworker who assists them with child
care, transportation and work-related matters. Application and re-determination interviews
provide opportunities for clients to receive information and sign voluntary paternity
acknowledgment forms. Additionally, in many States, child support and public assistance
agencies have very strong inter-agency relationships, making training and coordination efforts less
challenging than with other alternative sites.

Participation by Entities Other Than Public Assistance Offices is Still Very Limited.

State child support agencies have begun to offer voluntary acknowledgment services through a
variety of other alternative sites. Table 1 lists the number of States that report using alternative
sites in their acknowledgment programs.6 Two sites on the list, public health clinics and food
stamp offices, may be viewed as expansions of service within agencies that already offer
acknowledgment services. In many States, public health clinics, the second most frequently used
alternative site, are administered through the vital records agency. Therefore, many of these
States have simply expanded voluntary acknowledgment services beyond their vital records
offices to public health clinics. Similarly, food stamp programs are often administered through

                                                 2

public assistance offices. Other activities, however, clearly represent expansions of service to new
locations. Several States now use Women, Infant and Children (WIC) centers, high schools and
Head Start agencies in their acknowledgment programs. Some additional entities, such as
fatherhood organizations, appear to offer voluntary acknowledgment services, yet may not be
counted as alternative sites by State child support agencies.7


                     TABLE 1: Participation and Importance of Alternative Sites in State
                             Voluntary Paternity Acknowledgment Programs

          Alternative Site                   States Currently                  States Considering
                                                Using Site                      Site ‘Important’

 Public Assistance Offices                          26                                     36

 Public Health Clinics                              15                                     26

 High Schools                                       11                                     18

 Food Stamp Offices                                 10                                     21

 Head Start Agencies                                 9                                     21

 Private Doctors’ Offices                            9                                     19

 WIC Centers                                         8                                     22

 Middle Schools                                      5                                     12

 Medicaid HMO Facilities                             2                                     16

 Pre-natal Clinics                                 N/A                                     26



It is important to note that the responses summarized in Table 1 do not reflect the extent to which
a particular site participates Statewide. That is, use of an alternative site may occur in only one or
a few locations within a State. Some State child support agencies are testing alternative sites
through ‘pilot’ programs or have initiated participation only in selected geographic areas which
may be expanded in the future.

Participation by Certain Alternative Sites is Seen as Important by Child Support Agencies.

As listed in Table 1, State child support agencies believe participation by several alternative sites
is important to their voluntary paternity establishment programs. More than half of States view
public assistance offices, public health clinics and pre-natal clinics as important sites for
acknowledgment services. More than a third of States consider WIC centers, Head Start offices,
food stamp offices, doctors’ offices and high schools as potentially important to their
acknowledgment programs. However, many of the possible alternative sites listed in
OCSE regulations are not viewed as important by most respondents. For example, only nine
respondents indicated that providing voluntary acknowledgment services through child care

                                                      3

providers would be important to their program. As expected in early implementation, more States
view alternative sites as important than currently use those sites in their acknowledgment efforts.

Most State Child Support Agencies Have Made at Least Some Outreach Efforts to Alternative
Sites, But Some Entities are Reluctant to Participate.

To expand acknowledgment services, most States have made contact with other entities. Fifteen
State child support agencies, however, report making no efforts to expand acknowledgment
services to alternative sites.8 Most agencies indicate they use one of the following methods to
attract new participants: presentations at meetings and/or conferences (33 States), conversations
between key personnel (28), memos/letters sent to alternative site local offices (21), or phone
calls to alternative site local offices (16). According to one child support administrator
responsible for outreach to other entities, personal contact is critical because key people at the
alternative sites must be committed to the program. This official offered several examples of sites
that participated in paternity establishment efforts, but failed to generate many acknowledgments.
He suggested that other sites were more successful because their leaders were committed to the
project and encouraged staff to discuss voluntary paternity acknowledgment with clients.

Most State child support agencies who have conducted outreach report that some entities are
reluctant to provide voluntary acknowledgment services. Although only three States report
reluctance by “most” or “all” alternative sites contacted, another twenty States report reluctance
by half or fewer contacted sites.9

Lack of Resources is Cited as the Most Significant Barrier to Participation of Alternative
Sites.

State child support agencies identified barriers that hamper participation by alternative sites. In
general, other entities often see the voluntary paternity acknowledgment program as a potential
drain on limited staff time. Twenty-eight States report sites they approached were “too busy with
their primary function” and 25 States responded that entities “lacked the manpower to offer such
services.” Fourteen States report the absence of any financial incentive is a barrier to
participation. Despite having the authority to use Federal matching funds to pay other entities for
completed paternity acknowledgments, only four State child support agencies report paying
alternative sites for any services. By comparison, 20 State child support agencies paid hospitals
for completed voluntary acknowledgments in 1996.10

Most Participating Alternative Sites Provide Forms and Written Materials, But May Not
Actually Assist Parents in Completing Paternity Acknowledgments.

Table 2 shows the number of States in which alternative sites are providing different types of
acknowledgment services. The most common service is provision of outreach materials to the
general public. Typical outreach materials are wall posters, brochures or pamphlets that explain
the mechanics and benefits of voluntary paternity acknowledgment. In several States, alternative
sites currently participate in outreach, but offer no further services such as making

                                                 4

acknowledgment forms available to the public. While 21 States report that their public assistance
agencies distribute acknowledgment forms, only a handful of States currently make
acknowledgment forms available through high schools, WIC Centers, or Head Start facilities.
Some alternative sites also provide personal assistance to individuals and accept completed
acknowledgment forms. Personal assistance may include notification of rights and
responsibilities,11 or guidance on how to present the idea of acknowledging to the other parent.
Fewer alternative sites accept acknowledgment forms from the public and forward them to the
appropriate agency (typically the child support agency or the vital records agency.) As shown in
the last column of Table 2, only 15 States report that even their public assistance agencies
currently provide this higher level service.


                  TABLE 2: Number of States in Which Alternative Sites Provide Services

      Alternative Site          Outreach        Acknowledgment          Personal            Accept &
                                Materials           Forms              Assistance         Forward Forms

 Public Assistance Offices          26                   21                17                  15

 Public Health Clinics              15                   13                8                    4

 High Schools                       11                   4                 3                    3

 Food Stamp Offices                 10                   7                 6                    4

 Private Doctors’ Offices           9                    5                 1                    1

 Head Start Facilities              9                    5                 5                    4

 WIC Centers                        8                    5                 4                    2



Most State Child Support Agencies Provide Training or Materials to Alternative Sites, and
Some Have Begun to Monitor Their Performance.

Thirty-five State child support agencies report providing materials or training to other entities.
Additionally, vital records agencies perform some of these tasks in 15 States.12 In nine States,
however, neither the child support agency nor the vital records agency report providing any
training or materials to other entities. Eighteen State child support agencies report monitoring the
performance of most or all alternative sites, and an additional three States said their vital records
agency performs this monitoring function. The most common form of monitoring involves
tracking the number of acknowledgments generated through individual sites. Fourteen State child
support agencies and three vital records agencies monitor alternative sites by this method.
However, fewer than ten States report tracking alternative sites through more in-depth methods
such as personal conversations, telephone calls or on-site visits. Even less monitoring of
acknowledgment services may occur with entities that are not officially considered alternative
sites, such as fatherhood organizations. One approach to monitoring alternative sites was
developed for Cook County, Illinois where a single unit (3-4 staff members) acts as a liaison with

                                                    5

all alternative sites. This unit maintains contact with participating entity staff and insures periodic
training.

RECOMMENDATIONS

While State programs to offer voluntary paternity acknowledgment services through alternative
sites are still in early stages of development, many preliminary efforts appear promising.
Therefore, we recommend that the Office of Child Support Enforcement (OCSE) capitalize on
these early efforts by promoting refinement of potentially effective approaches. As we offer these
suggestions, we recognize that OCSE has already taken action to promote innovation in
acknowledgment services. For example, OCSE’s 8th National Training Conference highlighted
effective practices in a session on expanding voluntary acknowledgment services through
alternatives sites.

Focus technical assistance on the most promising sites.

States are using the flexibility afforded by welfare reform legislation and OCSE regulations to
expand voluntary paternity acknowledgment services offered through alternative sites, especially
public assistance agency offices. Although OCSE regulations list a large number of potential
sites, our research suggests that a few (public health and pre-natal clinics, WIC centers, food
stamp offices, Head Start agencies, doctors’ offices and high schools) clearly have the greatest
potential. To maximize the impact of technical assistance, OCSE should primarily focus on
helping States expand services through these sites.

Minimize complexity for participating entities.

Lack of staff is viewed as a significant barrier to participation by alternative sites. To address this
barrier, OCSE should assist States in simplifying the role of alternative site staff in the voluntary
paternity acknowledgment process. For instance, several states have established toll-free phone
lines through which parents may hear a recorded explanation of the rights and responsibilities of
acknowledging paternity or talk directly with a child support specialist. Many States have also
simplified processes through which sites may order needed materials or arrange for training of
new staff. These efforts reduce the burden on alternative site staff, while insuring that parents
may obtain accurate, consistent information.

Encourage full-service participation.

While most participating alternative sites provide public outreach materials about voluntary
acknowledgment of paternity, many do not offer full services that would enable parents to
complete and submit acknowledgments through the site. By encouraging alternative sites to assist
parents in completing voluntary acknowledgments, State child support agencies could increase the
use of acknowledgments and better utilize resources devoted to alternative sites. To accomplish
this goal, at least one State makes the percentage of cases with paternity established a
performance measure for its local public assistance office managers. Thus, these managers have a

                                                   6

direct incentive to give their staff the training and resources to assist parents in completing
voluntary paternity acknowledgments.

Consider developing incentives for alternative site participation.

Lack of financial incentives is seen as a significant barrier to participation by other entities.
Payment for completed voluntary acknowledgments, which currently occurs in only a few States,
may be one way to encourage alternative site participation. States might focus financial incentives
on sites - such as public assistance offices and public health clinics - which are full service sites,
appear to be promising, and are regarded as important by State child support officials. However,
some State child support administrators surveyed considered payment for acknowledgments akin
to offering a “bounty” for completed acknowledgments. On the other hand, others view a small
($10 - $20) payment as minimal compensation for assisting the State in the important task of
paternity establishment.

Encourage State agencies to more closely monitor sites.

While virtually all States provide training or materials to participating alternative sites, relatively
few appear to monitor the performance of these sites. Monitoring not only allows State child
support agencies to review the performance of sites, it also helps insure consistent service to
parents. To encourage monitoring, OCSE may wish to highlight the activities of States that do
actively monitor alternative sites. At a minimum, effective monitoring involves tracking the
amount of outreach materials distributed through other entities and the number of
acknowledgments completed at sites. More extensive methods may include periodic visits to sites
to conduct training and assess progress.

AGENCY COMMENTS

The Administration for Children and Families (ACF) notes that OCSE has made a commitment to
State development of alternative sites by allowing States to provide up to $20 to hospitals, State
birth record agencies, and other entities designated by the State and participating in the State’s
voluntary paternity establishment program for each voluntary acknowledgment obtained pursuant
to an agreement with the child support agency.13 ACF also anticipates that, in an effort to
increase paternity establishment ratios to the levels PRWORA requires, States will work closely
with, and monitor, the progress of paternity acknowledgment in alternative sites.

While ACF’s comments reaffirm that financial incentives are available for alternative sites, our
study shows that few States as yet pay alternative sites. On this issue and others addressed in our
recommendations, we continue to believe that States could benefit from further Federal leadership
and focused technical assistance as they seek to expand voluntary paternity acknowledgment
services through alternative sites.

ACF’s comments are provided in their entirety in Appendix A.


                                                   7

                                          ENDNOTES


1. The State agency responsible for maintaining birth records is also known as the vital records
agency or the public health statistics agency. We use the term ‘vital records agency’ in this
report.

2. The terms ‘alternative sites’ and ‘other entities’ are used interchangeably here.

3. OCSE Action Transmittal 99-02 (March 10, 1999).

4. Our office previously evaluated in-hospital voluntary paternity acknowledgment programs
and presented the results in August of 1997 in a series of four reports entitled In-Hospital
Voluntary Paternity Acknowledgment Program: State Agency and Birthing Hospital
Implementation (OEI-06-95-00160); Hospital Experiences in Sample States (OEI-06-95-
001610; Effective Practices in Hospital Staff Training (OEI-06-95-00162); and Effective
Practices in Parent Outreach (OEI-06-95-00163). Also, see our companion reports Paternity
Establishment: Use of Voluntary Paternity Acknowledgments (OEI 06-98-00053) and Paternity
Establishment: States Use of Genetic Testing (OEI 06-98-00054).

5. While every State returned the survey, three States did not fill out a series of questions on
other entities. Other questions on alternative sites were answered by varying numbers of
respondents. The effect, if any, of non-response to individual questions is that our findings
may understate actual alternative site activity.

6. This table does not include sites that fewer than twelve State child support agencies believed
would be important to their voluntary paternity program.

7. Our data collection concentrated on the other entities suggested in OCSE Action Transmittal
98-01 (January 8, 1998) and, therefore, did not ask about fatherhood organizations or other
community based organizations (CBOs). One State did report contacting CBOs to offer
acknowledgment services and fatherhood organizations have publicized offering services to
assist fathers in acknowledging paternity. Any unofficial involvement of CBOs may create
problems for State child support agencies, however, because they may lack mechanisms
through which to monitor or evaluate the efforts of these organizations.

8. Some of these fifteen States may not yet use voluntary paternity acknowledgments outside
hospitals and birthing centers. For more details, see our companion report, Paternity
Establishment: Use of Voluntary Paternity Acknowledgments (OEI 06-98-00053).

9. By contrast, 14 States report no reluctance at all by the alternative sites approached to
provide acknowledgment services.

10. As indicated in our report, In-hospital Voluntary Paternity Acknowledgment Program:
State Agency and Birthing Hospital Implementation (OEI-06-95-00160), August, 1997.


                                                8

11. If an alternative site distributes acknowledgment forms, it is required to provide parents
with written and oral notification of their rights and responsibilities regarding voluntary
paternity acknowledgment. For more details, see our companion report, Paternity
Establishment: Notification of Rights and Responsibilities for Voluntary Paternity
Acknowledgment(OEI 06-98-00051).

12. Nine State vital records offices conduct on-site training of alternative site staff. For more
details see our companion report, Paternity Establishment: The Role of Vital Records Agencies
(OEI 06-98-00055).

13. While the original ACF Response in Appendix A suggests that other entities must provide
prenatal or birthing services to be eligible for the $20 payment, OCSE clarified that States
could provide payment to any alternative site participating in the State’s voluntary paternity
establishment program pursuant to an agreement with the child support agency, as indicated in
OCSE Action Transmittal 99-02.




                                                9

